U.S. Department of                       The Inspector General    Office of Inspector General
Transportation                                                    Washington, DC 20590
Office of the Secretary
of Transportation




January 29, 2008


The Honorable John L. Mica
Ranking Member
Committee on Transportation and Infrastructure
U.S. House of Representatives
Washington, DC 20515

The Honorable Thomas Petri
Ranking Member
Subcommittee on Aviation
Committee on Transportation and Infrastructure
U.S. House of Representatives
Washington, DC 20515


Dear Congressmen Mica and Petri:

This is in response to your September 2007 request that we examine the
treatment of Marines and soldiers at Oakland International Airport. Your
request was prompted by an incident that occurred on September 27, 2007, in
which Marines and soldiers traveling on a military charter flight (Flight 1777),
en route from Iraq to their home base in Hawaii, were not allowed into the
passenger terminal at the airport. Instead, they had to deplane to a remote area
of the airfield without access to the terminal area. The enclosed briefing,
which we provided to you on January 23, 2008, details the results of our
review.

It was your understanding that airport security was not an issue and that the
airport’s decision to park Flight 1777 at a remote area of the airfield may have
been related to the payment or non-payment of airport fees. You requested that
we review this matter and determine whether the treatment of the Marines and
soldiers violated any Federal laws and regulations.
                                                                                    2

To address your concern, we met with or interviewed airport officials as well
as others involved with Flight 1777 to obtain data. These included officials
from the Department of Defense, the United States Marine Corps, the
Department of Homeland Security’s Customs and Border Protection and
Transportation Security Administration, the Federal Aviation Administration,
North American Airlines (military charter operator), and Hilltop Aviation
(ground handler of Flight 1777 at Oakland).

In summary, we found that a number of factors led the airport to park Flight
1777 away from the terminal area. Further details of our findings are provided
below:

 • We found that airport security was one of the reasons why airport officials
   decided to park Flight 1777 at an approved safety area (designated as
   Tango 1) used for servicing and re-provisioning military charter aircraft;
   the payment or non-payment of airport fees played no role in this decision.

 • We found no violations of Federal laws or regulations regarding the
   airport’s decision to park Flight 1777 away from the terminal, particularly
   Federal Aviation Administration safety regulations on parking aircraft for
   servicing and re-provisioning and allowing military personnel to deplane.

 • Based on our review results, we determined that the decision to park Flight
   1777 at Tango 1, rather than a gate near the terminal as requested by Hilltop
   Aviation, was primarily due to the airport’s concern that Hilltop Aviation
   could not provide an adequate level of escort and control at the gate to:

     - Ensure the safety of 204 military personnel in or around an area
       surrounded by active vehicle roadways and an active aircraft taxiway.
       On a previous military charter flight, the airport spotted military
       personnel roaming near the roadway.

     - Prevent a security breach. In the past, military personnel gained access
       to the airport Operations Control Center, and the airport was concerned
       about this for security reasons.

     - Process boarding passes for 204 military passengers within a 2-hour
       period to ensure an on-time departure. Military personnel who deplaned
       through Gate 18 to the public side of the airport would require boarding
       passes to go through TSA screening and re-board the aircraft.
       According to contracting staff, an on-time departure is the first priority
       of the contract with the airline.
                                                                                      3

 • Despite this concern, however, we also found that other factors, such as
   security, were involved in the airport’s decision to park Flight 1777 at
   Tango 1. These factors, which exacerbated the situation, included the
   following:

     - Absence of a coordinated policy between the Department of Defense
       and the Department of Homeland Security on whether (a) security
       screening of Members of the Armed Forces at military bases is
       sufficient to meet the Transportation Security Administration’s
       standards and procedures at commercial service airports and (b) military
       personnel subject to this screening can directly enter the sterile area of a
       commercial service airport without further screening.

     - Miscommunication about the proper storage and safeguarding of
       weapons carried on board military charter aircraft during the stop-over
       at the airport. Hilltop Aviation could not confirm that weapons on
       Flight 1777 would be secured and safeguarded in accordance with
       Department of Defense regulations and that the Marines and soldiers
       would leave their weapons on board.

     - Lack of communication on accommodating requests by Marines and
       soldiers for services outside the scope of contract terms between the
       Department of Defense and North American Airlines. The contract did
       not require that military personnel have access to the airport terminal; it
       only required that military personnel be allowed to deplane and stretch
       their legs on stops lasting over 1 hour.

Based on the results of our review, we think it would be prudent and beneficial
to establish a task force of representatives from the airlines, airports, and the
Departments of Defense, Homeland Security, and Transportation to develop
and implement a uniform process for handling members of the Armed Forces
on all military charter flights at U.S. commercial service airports.

If I can answer any questions or be of further service, please contact me at
(202) 366-1959 or Theodore Alves, Deputy Inspector General, at (202)
366-1992.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure
                                                         Enclosure
                                                       Page 1 of 15

Review of the North American Airlines Flight 1777
Incident at Oakland International Airport

DOT Office of Inspector General
Congressional Briefing to Congressmen Mica and Petri
January 23, 2008
                                                                    Enclosure
                                                                  Page 2 of 15




Congressional Request

   Congressmen John Mica and Thomas Petri requested the
    DOT Office of Inspector General to investigate whether an
    incident that occurred on September 27, 2007, at Oakland
    International Airport violated Federal laws and regulations
    (see slide 15 for audit scope and methodology).

   The incident involved 204 marines and soldiers traveling on
    North American Airlines (NAA) Flight 1777, en route from
    Iraq to their home base in Hawaii. These passengers were
    not allowed into the passenger terminal; instead, they had
    to deplane at a remote area of the airfield without access to
    the terminal area.

   The requestors believed that the incident was not an airport
    security issue but was possibly related to payment or non-
    payment of fees.


                                                                  2
                                                                                       Enclosure
                                                                                     Page 3 of 15




Timeline of Events: Flight 1777

   Pre-Planning

       September 14: NAA receives request from U. S. Air Force Air Mobility
        Command (Command) to transport military personnel from Kuwait to their
        home base in Hawaii.

       September 20: NAA advises its ground handler at the airport, Hilltop
        Aviation Services (Hilltop), of the scheduled technical stop for Flight 1777 on
        September 27 and requests that Hilltop arrange to service and re-provision
        the aircraft (i.e., cabin cleaning, refueling, restocking food and beverages,
        and servicing lavatory and water).

       September 21: Hilltop advises the airport of Flight 1777’s technical stop on
        September 27 and requests use of Gate 18, which provides access to public
        side of airport terminal, for servicing and re-provisioning the aircraft.

       September 21: The airport responds that instead of using Gate 18, Flight
        1777 would be parked at “Tango 1,” a remote site on the airfield without
        direct access to the airport terminal.

       September 25: Hilltop requests the airport to reconsider use of Gate 18.

       September 26: The airport denies request and instructs Hilltop to use Tango
        1 for reasons that are discussed later in this presentation.
                                                                                     3
                                                                                                       Enclosure
                                                                                                     Page 4 of 15




Timeline of Events: Flight 1777 (continued)

         Day(s) of Flight
                September 26: Flight 1777 departs Kuwait International Airport at 2321.1

                September 27: Flight 1777 arrives in Leipzig, Germany, at 0400, and
                 military personnel are allowed to enter the sterile area of the terminal.

                September 27: Flight 1777 departs Leipzig, Germany, at 0525 and arrives at
                 John F. Kennedy International Airport (JFK) at 0820. U. S. Customs
                 processes the military personnel. They were taken by bus to the sterile
                 area2 of Terminal 4, where they remain until departure.

                September 27: Flight 1777 departs JFK at 1020 and arrives at Oakland at
                 1341. The aircraft is directed to Tango 1 for servicing and provisioning.

                September 27: Upon deplaning at Tango 1, military personnel advise Hilltop
                 of three members’ need to access the terminal—two members had arranged
                 to meet family and friends and a third member had arranged to transfer to a
                 commercial flight for emergency leave. Hilltop accommodates these three
                 requests.

                September 27: Flight 1777 departs Oakland at 1655 and arrives at Hawaii at
                 1912.

1   All times are local times.                                                                        4
2   Sterile areas are those areas of an airport downstream of TSA passenger screening checkpoints.
                                                                                        Enclosure
                                                                                      Page 5 of 15




Summary of OIG Investigative Results:
Flight 1777

   We found that airport security was one of several factors that led the airport to
    park Flight 1777 at Tango 1; the payment or non-payment of airport fees played
    no role in this decision.
   We found no violations of Federal laws or regulations regarding the airport’s
    decision to park Flight 1777 away from the terminal, particularly Federal Aviation
    Administration safety regulations on parking aircraft for servicing and re-
    provisioning and allowing military personnel to deplane.
   Based on our review results, we determined that the decision to park Flight 1777
    at Tango 1 was primarily due to the airport’s concern that Hilltop could not
    provide an adequate level of escort and control of such a large group of military
    personnel in or around the terminal area.
   Despite this concern, however, we also found that other factors, such as security,
    were involved in the airport’s decision to park Flight 1777 at Tango 1. These
    factors, which exacerbated the situation, included the following:
       Absence of a coordinated policy for security screening between the Department of
        Defense (DOD) and the Department of Homeland Security (DHS).
       Miscommunication about the proper storage and safeguarding of weapons carried
        on board aircraft during the stop-over.
       Lack of communication on accommodating members’ requests for services outside
        the scope of contract terms between the Command and NAA.


                                                                                       5
                                                                                                  Enclosure
                                                                                                Page 6 of 15


Airport’s Concern About Level of Escort and
Control of Military Personnel In or Around
Terminal Area

   The Command, NAA, airport, and Hilltop all considered Flight 1777 to be on a
    “technical stop.” A technical stop is an operational stop, usually not in excess of
    2 hours, to service and re-provision the aircraft in order to get the military
    personnel to their final destination as soon as possible.
   In the past, the airport’s general practice was to park military charters on technical
    stops at Tango 1, thereby allowing military personnel to deplane while the aircraft
    is serviced and re-provisioned.
   Tango 1 is an approved safety area used not only for servicing and re-provisioning
    military charters but also for flights diverted to the airport because of weather,
    other reasons, or refueling needs.
   Hilltop requested that Flight 1777 park at Gate 18 but agreed to use Tango 1 if the
    airport was concerned about the large number of personnel on Flight 1777.
   The airport was concerned that a ground handler could not provide an adequate
    level of escort and control to:
        Ensure the safety of 204 military personnel in or around the Gate 18 area. Gate 18 is an
         area surrounded by active airport vehicle roadways and an active aircraft taxiway. On a
         previous charter flight, airport staff saw military personnel roaming near roadways.
        Prevent a security breach. In the past, military personnel had gained access to the airport
         Operations Control Center, and the airport was concerned about this for security reasons.
        Process boarding passes for 204 military passengers within a 2-hour period to ensure an
         on-time departure. Military personnel who deplaned through Gate 18 to the public side of
         the airport would require boarding passes to go through TSA screening and re-board the
         aircraft. According to contracting staff, an on-time departure is the first priority of the
         contract with the airline.
                                                                                                 6
                                                                                       Enclosure
                                                                                     Page 7 of 15


Absence of a Coordinated Policy Between DOD
and DHS for Security Screening of Armed
Forces Members on Military Charter Flights

   Public Law 108-176 (Vision 100), Section 606, stipulates that the
    “…Secretary of Defense, in consultation with the Secretary of
    Homeland Security and the Secretary of Transportation, shall establish
    security procedures relating to the operation of aircraft when employed
    to provide charter transportation to members of the armed forces….”
    to or from a commercial service airport.
   We found no evidence of such security procedures among DOD, DHS,
    and the Department of Transportation (DOT), resulting in divergent
    views and practices about whether:

       Security screening at military bases is sufficient to meet Transportation
        Security Administration (TSA) standards and procedures at commercial
        service airports within the United States.
       Military personnel subject to this screening can directly enter the sterile area
        of a commercial service airport without further screening.



                                                                                      7
                                                                                          Enclosure
                                                                                        Page 8 of 15


Absence of a Coordinated Policy Between DOD
and DHS for Security Screening of Armed Forces
Members on Military Charter Flights (continued)

   We also found that the contract between the Command and NAA is
    silent about whether screening at airports, bases, and terminals where
    there is a military presence satisfies TSA requirements. The contract
    contains two provisions that relate to security screening of military
    personnel on charter flights:

       One provision requires NAA to satisfy the screening requirements of the TSA
        Security Program at en route and operational stops where the military does
        not have a presence.
       The other provision states that the military will be responsible for security
        screening at airports, bases, and terminals where there is a military
        presence.




                                                                                        8
                                                                                                     Enclosure
                                                                                                   Page 9 of 15


Absence of a Coordinated Policy Between DOD
and DHS for Security Screening of Armed Forces
Members on Military Charter Flights (continued)

   The lack of a coordinated policy between DOD and DHS for screening military
    personnel unfortunately resulted in members of the Armed Forces being treated
    differently at the two commercial service airports involved in our review.

For example:

       At JFK, TSA officials told us that they accept screening at a military point of origin, such
        as Kuwait, as comparable to TSA screening. They allowed military personnel on Flight
        1777 to be escorted directly into the sterile area of Terminal 4 without further screening.


       At Oakland, the airport did not request TSA approval to allow members to access the
        sterile area of the terminal, because the airport and Hilltop could not determine that the
        military personnel would be screened to TSA standards prior to arrival.


       We also spoke with an official at TSA Headquarters who stated he agreed with the
        airport’s decision not to allow the military personnel into the sterile area of the terminal
        because the airport could not confirm whether prior screening had occurred “in
        accordance with TSA standards and protocols.”



                                                                                                       9
                                                                                    Enclosure
                                                                                 Page 10 of 15

Miscommunication About Proper Storage and
Safeguarding of Weapons Carried On Board
Aircraft

   The contract between the Command and NAA did not specify how
    weapons would be secured on board the flight. Instead, the entire
    Defense Transportation Regulations, DOD 4500-9R, were inserted in
    the contract by reference only. The regulations state that weapons can
    be:
       Carried either in the baggage or the passenger compartment with the
        responsible Commanding Officer making the final decision.
       Carried in the passenger compartment but the Commanding Officer must
        designate a guard for equipment remaining with the aircraft during technical
        stops.
   According to Command officials we spoke with, airport officials should
    have been notified by NAA that weapons on board Flight 1777 would
    be secured and safeguarded in accordance with DOD regulations.
   Hilltop, working on behalf of NAA, could not confirm that military
    personnel would leave their weapons on board, which contributed to
    the airport’s decision to park the aircraft at Tango 1.



                                                                                 10
                                                                   Enclosure
                                                                Page 11 of 15
Lack of Communication About Accommodating
Members’ Requests for Services
Outside Scope of Contract Terms Between the
Command and the Airline
   The contract between the Command and NAA required only
    servicing and re-provisioning of the aircraft during its
    “technical stop” at the airport.
   The contract did not require that military personnel have
    access to the airport terminal; it only required that military
    personnel be allowed to deplane and stretch their legs on stops
    lasting over 1 hour.
   The contract also did not include any specific instructions for
    accommodating military members, such as meeting family and
    friends during technical stops.
   The contract requirement for servicing and re-provisioning the
    aircraft only became the basis for information conveyed by
    NAA to Hilltop. NAA, through Hilltop, assumed full
    responsibility for passengers who deplane during a technical
    stop.
   The Commanding Officer and Hilltop learned, only after Flight
    1777 parked at Tango 1, that a few military personnel wanted
    to meet family and friends.
                                                                 11
                                                                           Enclosure
                                                                        Page 12 of 15
Lack of Communication About Accommodating
Members’ Requests for Services
Outside Scope of Contract Terms Between the
Command and the Airline (Continued)

   In fact, the Commanding Officer said that had he known about
    passengers’ desire to meet with family he would have
    instructed his members that “meet and greet” occur at the
    Hawaii home base and would not have allowed his members to
    leave the sterile area at prior stops. This means that the
    following would be required for meet and greet to occur:
       The airport would have to be notified in advance.
       The airline would need to provide special boarding passes for the
        family and friends in order to clear TSA security screening and
        gain access to the sterile area to meet with military personnel.
   Nevertheless, Hilltop was able to accommodate these members
    by escorting them to the terminal via company vehicle.
   Airport officials told us that had they known prior to arrival of
    Flight 1777 that some passengers had arranged to meet family
    and friends, they would have accommodated the request by
    arranging a proper meet and greet location in advance.

                                                                            12
                                                                                       Enclosure
                                                                                    Page 13 of 15




Actions Taken and Needed

   Various steps are in progress to prevent incidents like Flight 1777.

       On November 1, 2007, John J. Young, Jr., Acting Under Secretary of
        Defense for Acquisition, Technology and Logistics, wrote to Congressman
        Mica about the Oakland incident. Mr. Young stated that his office is working
        with the United States Transportation Command to develop procedures to
        prevent a recurrence of this type of incident.

       The airport has updated its Operations Procedures for Military Charter
        Flights to include prioritizing use of a parking ramp adjacent the terminal for
        deplaning members into the non-sterile area of the terminal. The airport is
        also working with TSA to see whether it is allowable for members to re-
        board the aircraft from the non-sterile side of the terminal rather than
        having the members go through TSA passenger screening checkpoints.

   Based on the results of our review, we think it would be prudent and
    beneficial to establish a task force of representatives from the airlines,
    airports, DOD, DHS, and DOT to develop and implement a uniform
    process for handling members of the Armed Forces on all DOD
    chartered flights at U.S. commercial service airports.


                                                                                    13
                                                                                      Enclosure
                                                                                   Page 14 of 15




Actions Taken and Needed (continued)

   At a minimum, the task force should develop a set of uniform policies
    and procedures for the following:

       Certifying military personnel to conduct screening according to TSA’s
        security screening standards and protocols.
       Meeting or exceeding TSA’s security standards at point-of-origin airports or
        bases where the military will conduct the screening.
       Notifying all appropriate stakeholders in advance that TSA screening
        standards have been met at point-of-origin airports or bases where the
        military does the screening so that military personnel can directly access the
        sterile areas of the airport terminals at stop-over airports en route. If TSA
        standards were not met, then the charter carrier should arrange to meet
        such standards at domestic stop-over commercial service airports.
       Notifying all appropriate stakeholders in advance the method used for
        properly storing and safeguarding of weapons on board aircraft at stop-over
        airports.
       Accommodating military members’ request for services that are outside the
        scope of the contract terms between DOD and the charter carrier, notifying
        the appropriate stakeholders in advance at stop-over airports that meet and
        greet arrangements are required, or notifying members in advance that
        meet and greet will not be allowed during en-route stop-overs.

                                                                                   14
                                                                                                    Enclosure
                                                                                                 Page 15 of 15




Audit Scope and Methodology

   We conducted audit work for this request between October 1 and
    December 7, 2007. To obtain data during this review, we met with or interviewed
    officials representing:
       U.S. Department of Defense Transportation Command
       U.S. Air Force Air Mobility Command, Contracting Division
       U. S. Marine Corps
       North American Airlines (Operator of Flight 1777)
       Port Authority of Oakland (Owner/Operator of Oakland International Airport)
       Hilltop Aviation Services (Ground Handler of Flight 1777 at Oakland)
       Transportation Security Administration (Headquarters, Oakland International Airport and
        John F. Kennedy International Airport)
       U.S. Customs and Border Protection
       Federal Aviation Administration (Oakland Air Traffic Control Tower and San Francisco
        Airports District Office).
   We reviewed:
       Department of Defense policies and procedures for transporting military personnel and
        equipment on charter flights, including security screening procedures, procedures for
        weapons storage on aircraft, and procedures for accommodating of military personnel
        during en-route stop-overs.
       Contract terms and conditions for operating Flight 1777.
       Oakland International Airport’s policies and procedures for handling military charter flights.
       Federal Aviation Administration regulations relating to aviation safety and grants and TSA
        regulations relating to aviation security.
                                                                                                  15
